No. 19-1212

 

IN THE
Supreme Court of the Gnited States

 

CHAD WOLF,
ACTING SECRETARY OF HOMELAND SECURITY, ET AL.
Petitioners,
Vv.
INNOVATION LAW LAB, ET AL.
Respondents.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Respondents

contains 5,578 words, excluding the parts of the document that are exempted by

Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2021.

Brim - oued)
Brianne d Gorod

Counsel for Amicus Curiae
